Appendix A
May 4, 2018

In the Circuit Court of the Ninth
Judicial Circuit in and for
Orange County, Florida
ALFRED RISIEN HAMMAN,
O.B.O. minor child
Case No:2018-CA-000093-0
William Henry Hamman Division 33
v.
Valencia College Board of Trustees
in it’s official capacity
ORDER STRIKING PLAINTIFF'S "EMERGENCY
VERIFIED EX PARTE MOTION FOR
ALTERNATIVE WRIT OF MANDAMUS"
THIS MATTER comes before the Court on Plaintiff s
"Emergency Verified Ex Parte Motion for Alternative
Writ of Mandamus," filed on May 3, 2018, and the
Court being otherwise duly advised in the premises it
is hereby ORDERED AND ADJUDGED that:
Plaintiffs motion is STRICKEN, without prejudice, 1
1 In his':Emergency Verified Ex Parte Motion for Alternative Writ
of Mandamus," Plaintiff raises the same allegations based on the
very same set of facts as put forth in his "Complaint for
Declaratory Judgement" and "plaintiffs Verified Motion for
Preliminary Injunction and Incorporated Memorandum ofLaw,"
both filed on January 4,2018. A hearing on Defendant's Pending
Motion to Dismiss Plaintiffs Complaint for Declaratory Judgment
is already scheduled for May 23,2018. The sufficiency of the
pleadings will be determined thereafter. Furthermore,
"[m]andamus is not a favored remedy when controverted issues of
fact must be resolved. Decktight Roofing Services, Inc. y. Amwesl
Sur. /rs., 841 So. 2d 667, 668 (Fla. 4th DCA 2003); Sandpiper Bay,
Inc. v. LoChance, 384 So. 2d 948, 950 (Fla. 4th DCA 1980). The
Plaintiff is reminded to serve documents and./or pleadings on
opposing counsel and provide a certificate of service.
al

Appendix B
IN THE DISTRICT COURT OF APPEAL OF THE
STATE OF FLORIDA FIFTH DISTRICT
ALFRED RISIEN HAMMAN
O/B/O W.H.H., A CHILD,
Petitioner,

CASE NO. 5D18-1797

v.
VALENCIA COLLEGE BOARD OF TRUSTEES,
IN THEIR OFFICIAL CAPACITY,
Respondent
DATE: June 27, 2018
BY ORDER OF THE COURT:
ORDERED that Respondent in the above-styled cause
shall, within twenty days of the date hereof, file a
response to the Amended Petition for Writ of
Certiorari, filed June 19, 2018. Additionally, it is
ORDERED that Petitioner is granted ten days from
service of the Response ordered herein, to file a Reply
thereto.

a2

Appendix C
IN THE DISTRICT COURT OF APPEAL OF THE
STATE OF FLORIDA FIFTH DISTRICT
ALFRED RISIEN HAMMAN
O/B/O W.H.H., A CHILD,
v.
CASE NO. 5D18-1797
VALENCIA COLLEGE BOARD OF TRUSTEES,
IN THEIR OFFICIAL CAPACITY,
DATE: February 14, 2019
BY ORDER OF THE COURT:
ORDERED that Petitioner’s Motion to Submit
Extraordinary Petition, filed August 22, 2018, Verified
Motion for Temporary Injunction, filed August 24,
2018, Motion for Leave to Amend Extraordinary
Petition, filed October 1, 2018, and Motion for Leave to
Submit, filed October 16, 2018, are denied.
ORDERED that the Petition for Writ of Certiorari,
filed June 4, 2018, and the Amended Petitions, filed
June 15, 2018, and June 19, 2018, are dismissed.
Further, it is ORDERED that Respondent’s
Motion for Sanctions, filed October 2, 2018, is denied.

a3

APPENDIX D
SUPREME COURT OF FLORIDA
Thursday, May 30, 2019
ALFRED HAMMAN, ETC, Petitioners)
vs.
UNIVERSITY OF CENTRAL FLORIDA BOARD OF
TRUSTEES, ETC
CASE NOS.: SC19-386; SC 19-522
Lower Tribunal No(s).: 5D18-2806;
482018CA000094A0010X
Respondent’s motions to consolidate filed in
Case Nos. SC19-386 and SC19-522 are hereby granted,
and the above cases are hereby consolidated. The
petitions for writ of mandamus in these consolidated
cases are hereby denied as successive. See Jenkins v.
Wainwright, 322 So. 2d 477, 478 (Fla. 1975) (declaring
that once a petitioner seeks relief in a particular court
by means of a petition for extraordinary writ, he has
picked his forum and is not entitled to a second or
third opportunity for the same relief by the same writ
in a different court). Any other motions or requests for
relief are hereby denied. No motion for rehearing or
reinstatement will be entertained by this Court.
POLSTON, LAWSON, LAGOA, LUCK, and MUNIZ,
JJ., concur.

a4

